        DEPARTMENT OF HOMELAND SECURITY


        Office of Inspector General




      DHS’ Efforts to Develop the Homeland
              Secure Data Network




        Office of Information Technology

OIG-05-19                                  April 2005
                                                         Office of Inspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared by
the OIG as part of its DHS oversight responsibilities to promote economy, effectiveness, and
efficiency within the department.

This report assesses the process used to develop and implement the Homeland Secure Data
Network. It is based on interviews with DHS officials, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, efficient, and economical operations. We express my
appreciation to all of those who contributed to the preparation of this report.




                                                 Richard L. Skinner
                                                 Acting Inspector General
                                                                                                                      Contents

Introduction.................................................................................................................................... 3

Results in Brief .............................................................................................................................. 4

Background .................................................................................................................................... 5

Findings.......................................................................................................................................... 7

     Challenges Remain to Ensure that HSDN User and Security Requirements Will Be Met ..... 7

     DHS Used an Appropriate Approach for the Acquisition of HSDN ………..…….. ............ 14

Recommendations………..…….................................................................................................. 15

Appendices

     Appendix A                Purpose, Scope, and Methodology.............................................................. 17
     Appendix B                Management’s Comments ........................................................................... 19
     Appendix C                HSDN Implementation Phases and Services ............................................... 21
     Appendix D                HSDN Phase 1 Sites..................................................................................... 22
     Appendix E                Major Contributors to This Report ............................................................. 23
     Appendix F                Report Distribution ..................................................................................... 24

Acronyms

     C&A                       Certification and Accreditation
     CIO                       Chief Information Officer
     CONOPS                    Concept of Operations
     CSDN                      Customs Secure Data Network
     CTO                       Chief Technology Officer
     Customs                   U.S. Customs Service (Department of the Treasury)
     Deliverables              Activities and Related Documentation
     DISA                      Defense Information Systems Agency
     DHS                       Department of Homeland Security
     DOD                       Department of Defense
     FAR                       Federal Acquisition Regulations
     FEDSIM                    Federal Systems Integration and Management Center
     FISMA                     Federal Information Security Management Act
     GSA                       General Services Administration
     HSAWG                     HSDN Security Accreditation Working Group
     HSDN                      Homeland Secure Data Network
                     Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                                                        Page 1
                                                                           Contents
  IPT        Integrated Product Team for HSDN
  IT         Information Technology
  IV&V       Independent Verification and Validation
  OIG        Office of Inspector General
  OMB        Office of Management and Budget
  PMO        Project Management Office for HSDN
  SDLC       System Development Life Cycle
  SIPRNET    Secure Internet Protocol Router Network
  ST&E       Security Test and Evaluation


Figures

  Figure 1   DHS SDLC Phases
  Figure 2   Expansion of User Requirements from CSDN to HSDN
  Figure 3   Requirements Definition Methods for CSDN and HSDN
  Figure 4   Status of Key Security, Design, and Development Activities




             Review Of DHS’ Effort to Develop The Homeland Secure Data Network


                                            Page 2
         OIG
         Department of Homeland Security
         Office of Inspector General

Introduction
               Terrorist attacks on U.S. interests around the world, culminating with the
               September 11, 2001, attack on the homeland, highlight the need for U.S.
               government organizations involved in terrorism prevention and response
               to share vital intelligence information securely in order to coordinate their
               activities. The Homeland Security Act of 2002 specifically recognized this
               need and established procedures to address it.

               Anticipating the need to share intelligence and other information securely
               to fulfill its homeland defense mission, the Department of Homeland
               Security (DHS) is streamlining and merging disparate classified networks
               into a single, integrated network called the Homeland Secure Data
               Network (HSDN). Homeland security leaders envision that HSDN will
               become the major secure information thoroughfare joining together
               intelligence agencies, law enforcement, disaster management, and front-
               line disaster response organizations in the common goal of protecting our
               nation and its citizens.

               As part of its ongoing responsibilities to evaluate the effectiveness of DHS
               programs and activities, we conducted a review of the HSDN. The
               objectives of this review were to determine whether HSDN: met user
               needs; complied with information security standards and policies; and,
               was cost-effective.

               We conducted fieldwork at DHS’ Office of Chief Information Officer
               (CIO), and several DHS directorates and critical agencies. We performed
               our review between August and November 2004, according to generally
               accepted government auditing standards. See Appendix A for a
               description of our purpose, scope, and methodology.




               Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                            Page 3
Results in Brief
                   DHS has taken a number of key steps toward the implementation of
                   HSDN. These include: establishing a Program Management Office
                   (PMO) for development and implementation of HSDN; performing tasks
                   in the planning, requirements definition, and design phases of the DHS
                   System Development Life Cycle (SDLC) process for the new network;
                   defining the HSDN system concept; identifying some user requirements
                   for HSDN; and, awarding a contract for the design, development, testing,
                   and implementation of HSDN. Further, DHS used an appropriate
                   approach for the acquisition of HSDN.

                   DHS officials believed that the Department of Defense (DOD) planned to
                   terminate DHS’ access to the DOD secure network, Secret Internet
                   Protocol Router Network1 (SIPRNET), by December 31, 2004.
                   Accordingly, the DHS CIO established an aggressive nine-month
                   timeframe to implement HSDN. However, this accelerated schedule
                   prevented DHS from adequately completing critical system development
                   requirements. Specifically, the methods for collecting and documenting
                   the functional and security needs of users during the requirements
                   definition phase for the new network did not provide adequate assurance
                   that user needs at the 600 sites will be met. Further, security
                   implementation requirements and essential testing had not been completed
                   one month prior to deployment. Without completing and documenting
                   these activities in sufficient time for review and adjustment to eliminate or
                   mitigate risk, DHS does not have assurance that HSDN complies with
                   security standards and policies.

                   We are recommending that the CIO:

                   •    Ensure that users are involved in the requirements definition process
                        for all future implementation phases of HSDN.

                   •    Verify that all necessary activities and documents, including
                        certification and accreditation and thorough security control testing,
                        are completed prior to system deployment.




          1
           The Defense Information System Network has two separate internet protocol router networks: the
          SIPRNET and the Sensitive But Unclassified (SBU) Internet Protocol Network. The SIPRNET is an
          encrypted, closed loop system, meaning that it is completely separated from all other computer systems.



                  Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                                     Page 4
Background
                  The HSDN grew out of an initiative at the U.S. Customs Service2
                  (Customs), called the Customs Secure Data Network (CSDN). The
                  CSDN, which was estimated to cost $60 million, was intended to connect
                  128 sites. When Customs became part of DHS, CSDN was incorporated
                  into the DHS consolidated information technology (IT) infrastructure.
                  The HSDN will be comprised of secure network connections on a data
                  communications framework that links HSDN users to data centers. These
                  data centers will provide users with access to DHS data and will connect
                  to other secure, federal systems through gateways.3

                  HSDN will be implemented in four phases. The first phase of the HSDN
                  is intended to provide an integrated network for secure access to data
                  classified as Secret.4 In the last phase of implementation, HSDN will
                  provide the capability of sharing Top Secret5 information. At a cost $337
                  million, the HSDN will eventually connect 600 geographically dispersed
                  DHS intelligence gathering units, operational components, and other
                  federal, state, and local agencies involved in homeland security activities.

                  In the initial phase, HSDN will provide a suite of tools, including data
                  access, secure e-mail, collaboration tools, data mining, intelligence
                  analysis, and secure messaging6 capabilities to 73 sites. In subsequent
                  phases, additional HSDN capabilities will be added and extended
                  throughout DHS and to other federal, state, and local organizations.
                  Appendix C describes the HSDN Implementation Phases, along with the
                  initial and future services to be provided. Appendix D provides a detailed
                  list of the 73 sites included in Phase 1 of the HSDN implementation.

                  The HSDN project is organized under the overall leadership of the DHS
                  Office of the CIO. The DHS Chief Technology Officer (CTO), who

        2
          The U.S. Customs Service, formally under the U.S. Department of the Treasury, divested to the U.S.
        Department of Homeland Security, pursuant to the Homeland Security Act of 2002 (P.L. 107-296).
        3
          A gateway is a hardware/software package that is used to interconnect networks with different protocols.
        The gateway has its own processor and memory, and can perform protocol and bandwidth conversions.
        4
           “Secret” data is defined by Executive Order 12958 (Classified National Security Information) as
        information that if disclosed to unauthorized persons or compromised could cause serious damage to U.S.
        national security.
        5
          “Top Secret” data is defined by Executive Order 12958 (Classified National Security Information) as
        information that if disclosed to unauthorized persons or compromised could cause exceptionally grave
        damage to U.S. national security.
        6
          Secure e-mail allows users to encrypt e-mail messages so they cannot be read even if intercepted.
        Collaboration tools, such as an electronic white-board, allow people in distant offices to work together over a
        data communications link. Data mining provides tools to find the data you are looking for in very large
        databases. Intelligence analysis provides summarized intelligence data. Secure messaging handles
        encryption of e-mail, files, and other data sent over the network without any user intervention.



                Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                                    Page 5
 reports to the CIO, oversees the PMO, which has day-to-day responsibility
 for managing HSDN. The PMO has an organizational plan which
 describes activities employed to manage the HSDN acquisition, such as
 the governance structure, program office organizational structure, and
 staffing levels. Through a contract with the General Services
 Administration’s (GSA) Federal Systems Integration and Management
 (FEDSIM) Center, the PMO built an organization for program
 development, implementation, and operations. On April 12, 2004, DHS
 awarded a contract to a prime contractor and its related partners for the
 design and completion of HSDN as well as integrating existing and new
 business processes and technologies. With its prime contractor on board,
 the PMO supported the near-term Phase 1 and planned for the delivery of
 HSDN to meet DHS classified communications objective as a part of a
 consolidated, secure DHS information infrastructure.

 DHS is using a system development life cycle (SDLC) methodology to
 provide a structured approach to managing IT projects. As illustrated in
 Figure 1, there are eight phases in the DHS SDLC:
    • Planning Phase: Defines the system concept from the user’s
        perspective and establishes a comprehensive development plan.
    • Requirements Definition Phase: Defines detailed requirements
        (users and technical staff) to ensure that the system will meet user
        requirements. Establishes a functional baseline.
    • Design Phase: Transforms requirements into detailed design
        specifications. Establishes an allocated baseline, documented in
        the System Design Document.
    • Development Phase: Builds the system (development team)
        according to the design specified during the Design Phase.
        Conducts development testing.
    • Test Phase: Tests and evaluates independently to ensure that the
        developed system functions properly. Satisfies the requirements
        (including security requirements) developed in the Requirements
        Definition Phase and performs adequately in the host environment.
    • Implementation Phase: Deploys system to designated production
        sites. Completes product baseline, including the production
        system, databases, an updated data dictionary, associated
        infrastructure, and supporting documentation.
    • Operations and Maintenance Phase: Becomes operational.
        Identifies necessary system modifications. Documents them as
        “System Change Requests.”
    • Disposition Phase: Retires from the operational environment.



Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                             Page 6
                                             Figure 1: DHS SDLC Phases
                                                 •Establish plan
               • Retire system                   for developing
               • Archive data                    system
                                                                                      •Define requirements
                            Disposition                                               •Establish functional baseline
                               Phase                        Planning
                                                             Phase

                                                                           Requirements
                                           O&M                               Definition
                                           Phase                              Phase
                •Migrate system to
                production
                environment
                • Carry out system
                                                          SDLC                                        • Design system
                enhancements
                                                         Process                       Design         • Establish allocated
                                                                                                      baseline
                                                                                       Phase
                                     Implementation
                                         Phase

                   • Establish product
                   baseline
                   • Deploy system                                       Development
                                                        Test
                                                                            Phase
                                                       Phase                               • Build system
                                                                                           • Test system build


                                                   •Conduct independent testing and
                                                   evaluation

              Source: DHS Sensitive Systems Handbook, Information Technology Security Program,
              DHS MD-4300, June 2003.

              DHS policy requires security to be integrated into the SDLC from the IT
              system’s inception to the system’s disposal through adequate and effective
              management, personnel, operational, and technical control mechanisms. In
              addition, OMB Circular A-130 requires that federal agencies ensure that
              major information systems proceed in a timely fashion toward agreed-
              upon milestones in an information life cycle. Also, OMB requires that
              information systems deliver their intended benefits, meet user
              requirements, and identify and offer security protections.

Findings

    Challenges Remain to Ensure That HSDN User and Security
    Requirements Will Be Met
              DHS has taken key steps toward the implementation of HSDN. The PMO
              performed tasks in the planning, requirements definition, and design
              phases of the DHS SDLC process for the new network. For example,
              DHS defined the HSDN system concept, identified some user
              requirements for HSDN, and awarded a contract for the design,
              development, testing, and implementation of HSDN. However, because
              DHS adopted an accelerated schedule for HSDN deployment, it did not


             Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                                   Page 7
 adequately complete key system development steps. Specifically, users
 were not sufficiently involved in the requirements definition phase and
 security implementation requirements and essential testing were not
 completed on schedule. As a result, DHS does not have assurance that
 HSDN will satisfy user needs and adequately protect classified
 information.

 DHS Did Not Employ Sufficient Collection Methods During The HSDN
 Requirements Definition Phase

 During the requirements definition phase for HSDN, DHS did not use
 sufficient methods and outreach efforts to ensure that the HSDN user
 community supported the functional baseline of the acquisition, and that
 the acquisition was based upon clearly understood needs. During 2002,
 prior to the creation of DHS, the former U.S. Customs defined and
 documented its user requirements for CSDN. When DHS acquired the
 CSDN program, the PMO accepted its applicability as a pilot for DHS’
 mission and user requirements. However, by the time the PMO presented
 the HSDN business case justification to the DHS Investment Review
 Board (November 2003), it had not validated that the requirements
 developed by Customs users met the needs of all DHS sites. In addition,
 DHS did not collect sufficient input to identify and document user
 requirements for the 600 HSDN sites. Figure 2 contrasts CSDN with
 HSDN in terms of project complexity and user requirements, as
 represented by lines of business.




Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                             Page 8
 Figure 2: Expansion of User Requirements from CSDN to HSDN




               Treasury
                CSDN
               FY 2002
                                                              DHS
                                                             HSDN
               CSDN User Needs
               1. Combat Terrorism
                                                            FY 2004
               2. Border Control
               3. Improve Law Enforcement

                                                HSDN User Needs
                                                1. Combat Terrorism
                                                2. Border Control
                                                3. Improve Law Enforcement
          CSDN was designed to connect to       4. Improve Transportation Security
          128 sites. HSDN will eventually       5. Enhance First Responder Programs
          incorporate 600 sites. In addition,   6. Improve Information Sharing
          HSDN will add six new services.
                                                7. Decrease Response Time for Action
                                                8. Improve Quality of Decision Making
                                                9. Mitigate Threats to Our Homeland



 Source: OIG figure based on analysis of CSDN FY2002 and HSDN FY2004 business
 case justifications and capital asset plans.
 The DHS CTO said that three methods were used to identify user
 requirements: Integrated Product Team (IPT) meetings, HSDN Town Hall
 meetings, and DHS directorate and critical agency’s CIO reviews.
 However, prior to the contract award for HSDN in April 2004, these
 methods did not adequately involve users in determining and documenting
 the functionality needed for HSDN. Figure 3 identifies all the methods
 employed during the requirements definition phases for CSDN and
 HSDN. Specifically:

 •   The CTO said that the IPT meetings served as an important forum for
     obtaining user requirements. However, as of November 2004, only
     two IPT meetings were held. The first meeting (July 2003) involved
     only two DHS components: the Bureau of Customs and Border
     Protection and Bureau of Immigration and Customs Enforcement.
 •   The second IPT meeting in February 2004, held two months before the
     HSDN contract was awarded, introduced current DHS users to the
     project, rather than identify user needs. In addition, we interviewed
     18 IPT members from DHS components to determine whether user
     requirements had been accurately identified for the network. Five of
     the 18 IPT members said that they had not been involved in the



Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                     Page 9
     definition of user requirements. Four of the 18 IPT members said that
     they had not reviewed the HSDN design.
 •   The CTO said that Town Hall meetings were held to provide a forum
     for HSDN discussions and to collect user needs from user
     representatives. However, none of the IPT members were aware of the
     HSDN Town Hall meetings, and DHS did not develop minutes or
     attendance lists for the meetings.
 •   Only two meetings with DHS component CIOs were held (June 2003
     and September 2003) to formally review HSDN user requirements
     before the contract award. However, the reviews were not detailed
     and the PMO did not have documentation showing that the CIOs
     accepted the requirements identified for the acquisition and subsequent
     design of HSDN.
 •   The PMO developed a requirements crosswalk with some DHS
     organizational elements in March 2003. However, other DHS
     components requiring secure connectivity for information sharing,
     IAIP, S&T, and the OIG, were not involved.


 Figure 3: Requirement Definition Methods for CSDN and HSDN
       Treasury-US Customs Service                                  DHS
                 Development of CSDN                       Development of HSDN
                   User Requirements                         User Requirements
                 (13 IPT Meetings Held)                     (2 IPT Meetings Held)

      February          February          March     June   July    Sept      Nov    Feb April
       2002              2003             2003      2003   2003    2003      2003   2004 2004




                                                                             HSDN       Contract
       CSDN              CSDN        Review of
                                                    st                    Requirements Awarded to
                                   CSDN by DHS 1 Review
                                                                           and Scope    Northrop
                                    Classified IT of HSDN by
                                                                          Presented to Grumman
                                   Working Group DHS CIOs
                                                                            DHS IRB
                                                               2nd Review
                                                               of HSDN by
                                    Requirements
                                                                DHS CIOs
                                      Crosswalk
                                (CBP, USCG, ICE, USSS,
                                       TSA, EPR)

                                                         1st IPT                    2nd IPT
                                                   Meeting-HSDN Pilot           Meeting-HSDN
                                                      (CBP & ICE)                Presentation
                                                                            (All DHS Directorates
                                                                            and Critical Agencies)




 Source: Adapted from HSDN Investment Review Board Presentation, November 20,
 2003.




Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                    Page 10
           According to the DHS Sensitive Systems Handbook, users should be
           involved in defining the detailed requirements for new systems to ensure
           that the system will meet user needs. However, DHS’ methods for
           collecting and confirming user requirements prior to contract award did
           not lead to assurance that user needs at the 600 sites will be met. As a
           result of the weaknesses in defining the user requirements for Phase 1,
           DHS does not have assurance that the HSDN will satisfy users’ functional
           and security needs, and adequately protect classified information.

           Key Activities - Including Security Implementation Requirements and
           Essential Testing - Not Completed

           Many of the key activities needed to control the implementation of HSDN
           have not been completed. During August 2004, DHS was in the planning
           phase of the SDLC and intended to deploy HSDN by December 31, 2004.7
           As of November 2004, the PMO was still working on compliance with
           security standards and policies. In an effort to implement the HSDN
           within the nine-month timeframe established by the CTO, the PMO did
           not follow its own schedule that would allow for thorough preparation and
           adjustment of HSDN security, design, and development activities.

           The CIO’s office believed that the DOD planned to terminate DHS’ access
           to the DOD secure network by December 31, 2004. Accordingly, the
           DHS CIO established an aggressive nine-month timeframe to implement
           HSDN and, thus, did not complete a number of key implementation steps.
           However, the SIPRNET Service Manager at the Defense Information
           Systems Agency said that there was no intent to revoke DHS access on
           this specific date, but to phase out services once HSDN was fully
           operational.

           Figure 4 highlights the activities that need to be completed for HSDN. We
           analyzed the status of 41 HSDN key activities listed in the Task Orders.
           Of these deliverables, 30 of 40 (75%) missed their delivery dates. As of
           October 31, 2004, 28 of 41 (68%) deliverables still had not been
           completed. Many of these deliverables included key security planning and
           implementation activities to minimize the risks that the system can be
           compromised and to ensure that risk elimination or mitigation efforts are
           implemented prior to deploying the system. Essential documentation,
           such as the vulnerabilities assessment report, security test and evaluation
           report, and system certification packages, were not complete.




7
    DHS revised the HSDN implementation timeline from December 2004 to March 2005.



         Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                         Page 11
         Figure 4: Status of Key Security, Design, and Development Activities
Aug. 23, Oct. 31,        Scheduled
 2004     2004          Delivery Date                 Key HSDN Security, Design, or Development Activity
  NS       NS           July 28, 2004      Security Test & Evaluation Plan
                                           System Concept of Operations (CONOPS): Continuity of Operations
  NS        NS          May 3, 2004
                                           Plan
  NS        NS         April 17, 2004      Security Test Results and Corrective actions
  NS        NS         April 17, 2004      Site/System Certification Package (each site C&A)
  NS        NS         April 17, 2004      Vulnerabilities Assessment Report as discovered
  NS        NS        October 29, 2004     Service Catalog
  NS        NS       November 30, 2004 Technology Refreshment Plan (candidate subsystems)
  NS        NS        October 31, 2004     Business Process Re-Engineering Assessment Document
  NS        NS          June 7, 2004       HSDN Support Plan
  NS        NS          June 7, 2004       HSDN Training Plan
  NS        NS          June 7, 2004       Help Desk Standard Operating Procedures
  NS        NS       November 30, 2004 Enterprise Architecture
  NS        NS         April 22, 2004      Site Installation Plan (Prepared for each site).
  NS        NS         June 16, 2004       Documents and Manuals
  NS        NS         July 14, 2004       HSDN Installation Plan
                                           Network Operation Center Standard Operating Procedures: Disaster
  NS        NS          June 8, 2004
                                           Recovery
  NS        ID          June 8, 2004       Security Training Plan and Curriculum
  NS        ID          June 8, 2004       HSDN Security Plan: Disaster Recovery Plan/Procedures
  ID        ID      Date Not Established Privacy Impact Assessment
  ID        ID          June 8, 2004       Contractor Facility and Physical Security Plan
  ID        ID         May 10, 2004        Configuration Management Plan and Procedures
  ID        ID          May 3, 2004        System CONOPS
  ID        ID         May 10, 2004        External Interconnection Agreements
  ID        ID         April 12, 2004      Computer Network Defense CONOPS
  ID        ID         May 10, 2004        Computer Incident Response Team
  ID        ID         May 10, 2004        Communication Security Plan
  ID        ID          May 3, 2004        HSDN Master Test Plan
  ID        ID         July 28, 2004       System Security Authorization Agreement (SSAA): Part B
  ID         C         May 17, 2004        HSDN Quality Control Plan
  ID         C         April 12, 2004      SSAA: Part A
  ID         C          May 3, 2004        Government Furnished Equipment Use/Reuse Guidelines
   C         C          May 2, 2004        HSDN Quality Assurance Surveillance Plan
   C         C         April 20, 2004      System Architecture
   C         C         April 12, 2004      Transition Plan
   C         C         April 12, 2004      HSDN Deployment Plan
   C         C         April 12, 2004      Fault Analysis Plan
   C         C         April 12, 2004      HSDN Risk Management Plan
   C         C         April 12, 2004      HSDN Design Document
   C         C         April 12, 2004      Kickoff Meeting Briefing Charts
   C         C         April 12, 2004      HSDN Project Management Plan
   C         C         April 12, 2004      Work Breakdown Structure
                                                                                             Security Related
       C = Completed              ID = In Development                NS = Not Started
                                                                                                 Activities
         Source: OIG figure based on an analysis of HSDN project deliverables.




            Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                                Page 12
     According to DHS policy and NIST standards, security controls must be
     incorporated into the SDLC from the system’s inception through its disposal.
     The PMO established the HSDN Security Accreditation Working Group
     (HSAWG) to involve user agencies in the Site/System Certification and
     testing processes. However, this group was not formed until October 2004,
     two months before HSDN was scheduled for deployment. During its first
     meeting, held on November 19, 2004, the HSAWG recognized security was a
     major concern and that documentation on security controls was needed.8 As of
     October 31, 2004, 18 of 20 (90%) deliverables providing information for
     HSDN certification and accreditation were not completed. (See shaded
     activities in Figure 4).

     The DHS Management Directive on Information Technology Systems
     Security9 requires a certification and accreditation to be completed before any
     system can be granted authority to operate.10 Accordingly, each of the 73 user
     sites must have a completed site certification and accreditation package before
     it can be connected to the HSDN to ensure that undetected vulnerabilities are
     not inherited and spread system-wide. After the packages are distributed, the
     sites will need time to conduct site surveys and correct any deficiencies or
     identify mitigating conditions prior to being connected in December 2004. As
     of November 19, 2004, certification packages for completion by each site
     before converting to the HSDN had not been distributed to the sites.11
     Accordingly, one month prior to the scheduled HSDN deployment, the site
     certification and accreditations were not completed.

     As of November 2004, DHS had not performed essential system testing as
     part of the testing phase of the certification and accreditation. Specifically,
     the development of the security test and evaluation (ST&E) plan,12 which was
     scheduled for completion in July 2004, had not yet begun. According to NIST
     800-37, completing this testing and properly responding to the results should
     be completed during the initiation phase of the SDLC, when system
     requirements are established.

     In addition, the HSDN Master Test Plan,13 which was scheduled to be finished
     in May 2004, had not been finalized. The HSDN Master Test Plan would aid
     in determining whether the functional and security requirements are met,
8
   DHS Minutes of HSAWG meeting, November 19, 2004.
9
  DHS Management Directive No. 4300A, Information Technology Systems Security Management, June
2003.
10
   The primary purpose of system C&A is to promote appropriate risk management to ensure security is
provided for all information collected, processed, transmitted, stored, or disseminated by systems.
11
   DHS Minutes of HSAWG meeting, November 19, 2004.
12
   The ST&E plan outlines the testing to be conducted to verify that security controls are built into HSDN
function as intended and to aid in the assessment of acceptable risk.
13
   The Master Test Plan outlines the unit level, integration, operational, installation, and external interface
testing that will be conducted to ensure that the system functions as intended.



        Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                            Page 13
       facilitate assessing the effectiveness and strength of internal controls and
       security, and provide criteria for acceptance when passed, corrective action if
       failed, or eligibility for new or replaced system components. The Federal
       Information Security Management Act (FISMA) of 200214 requires each
       agency to perform testing and periodic evaluations of the effectiveness of
       information security and includes the testing of management, operational, and
       technical controls to ensure that security controls are in place to maintain risk
       at an acceptable level.15

       Insofar as the Master Test Plan had not been followed, many of the IPT
       members who we contacted did not have the test schedule and were uncertain
       whether they would be involved in testing. Further, there was little or no
       understanding of the testing process or when and how adjustments would be
       made. Additionally, to improve internal controls and risk management after
       deployment, users may require more extensive testing than contracted, leading
       to additional expenditures and resource utilization that could have been
       avoided.


DHS Used An Appropriate Approach For The Acquisition Of
HSDN
       DHS employed an appropriate approach for promoting cost effectiveness of
       the acquisition of HSDN. To determine if the acquisition plan called for open
       competition, we reviewed the CSDN and HSDN OMB Exhibits 300, Task
       Order, and conducted interviews with the PMO. According to the information
       provided, the Task Order request was released under the GSA’s Millennia
       Contract to eight top industry leaders that could serve as prime contractors for
       HSDN. The proposers submitted written proposals and made oral
       presentations to the PMO. DHS selected the Millennia contract on both
       technical and cost considerations as a basis for ensuring the cost effectiveness
       of the acquisition of services related to HSDN design, development, and
       implementation.

       The Millennia contract is an Indefinite Delivery/Indefinite Quantity,
       Government-wide Acquisition Contract that fulfills the federal government’s
       demand for large system integration and development projects by providing
       information technology services in a timely and cost-effective manner. The
       following are characteristics of the contract that support the cost effectiveness
       of the HSDN acquisition approach.


14
     FISMA was enacted as Title III of the E-Government Act of 2002, P.L. 107-347.
15
     Id., § 301; codified in 44 U.S.C. §§ 3544(a)(2)(D) and (b)(5)(A).



          Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                           Page 14
            •    The contract contains five Cost Reimbursement Task Orders, suitable for
                 use when uncertainties in contract performance do not permit cost to be
                 estimated with sufficient accuracy to use a fixed price contract.

            •     The contract is structured with award fees based on meeting development
                 and deployment milestones, and upon achieving performance metrics as
                 specified in Service Level Agreements.

            •    The contract specifies that metrics be collected and reported as factors in
                 an Earned Value Management System. To ensure that the HSDN Project
                 will be developed in a cost-effective manner, the Task Order implements
                 an Earn Value Management System that complies with the ANSI/EIA
                 Standard 748.

         The PMO utilized the GSA’s FEDSIM Center as the contract office representative
         on fee-for-service basis to provide technical and administrative support and
         acquisition services, including contract award and oversight. Under the Millennia
         contract, Northrop Grumman will perform the design, development, testing, and
         implementation activities for HSDN, using functional and security requirements
         developed by DHS.

Recommendations

         To better manage the implementation of HSDN, we recommend that the CIO:

            1. Ensure that users are extensively involved in the requirements definition
               process for all future implementation phases of HSDN.

            2. Verify that all necessary activities and documents, including certification
               and accreditation and thorough security control testing are completed prior
               to system deployment.




                Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                             Page 15
Management Comments and Our Evaluation

     We obtained written comments on a draft of this report from DHS. We have incorporated
     the comments where appropriate and included a copy of the comments in their entirety as
     Appendix B. DHS agreed with each of our recommendations. Below is a summary of
     DHS’ response to each recommendation and our assessment of the response.

     Recommendation 1: Ensure that users are extensively involved in the requirements
     definition process for all future implementation phases of HSDN.

     The HSDN Program Director has established a senior position in the PMO as
     requirements lead for the program, and has assigned a PMO staff to that role to ensure
     that users are involved in the requirement definition process for all implementation
     phases of HSDN.

     We accept DHS’ response for ensuring that users are extensively involved in the
     requirements definition process for all future implementation phases of HSDN.

     Recommendation 2: Verify that all necessary activities and documents, including
     certification and accreditation and thorough security control testing are completed
     prior to system deployment.

     The HSDN PMO concurs that HSDN must be fully certified and accredited prior to
     system operation. Current certification and accreditation activities are managed by the
     Security group in the HSDN PMO, and occupy two senior full time PMO staff.
     Complying with the DHS certification and accreditation process involves development of
     a full documentation suite, verification of security control testing, and completion of the
     full process prior to system operation.

     We accept DHS’ response that HSDN will comply with the DHS certification and
     accreditation process prior to system operation.




                 Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                               Page 16
                                                                       Appendix A
                                                                       Purpose, Scope, and Methodology

            The objectives of our review were to determine whether HSDN: (1) met user needs;
            (2) complied with information security standards and policies; and, (3) was cost-
            effective.

            We reviewed DHS efforts and requirement definition methodology - to determine
            whether HSDN met functional and security requirements of users - in relation to its
            system development life cycle methodology and applicable directives. We analyzed the
            Office of Management and Budget (OMB) Exhibits 300 for business case justification for
            CSDN and HSDN. We conducted interviews with the PMO, FEDSIM, and
            representatives of:
            DHS Directorates or Critical Agencies
               • Border and Transportation Security16
                         Bureau of Customs and Border Protection
                         Bureau of Immigration and Customs Enforcement
                         Transportation Security Administration
               • Emergency Preparedness & Response
               • Information Analysis and Infrastructure Protection
               • Science & Technology
               • United States Secret Service
            Non-DHS Agency
               • Defense Information System Agency17

            To determine the extent to which HSDN complied with information security standards
            and policies, we reviewed applicable laws, federal regulations and standards, and
            directives. We compared security planning and implementation efforts with requirements
            to determine whether they were met. We reviewed the two completed certification and
            accreditation documents, the HSDN Risk Management Plan and the first part of the
            System Security Authorization Agreement. We analyzed 41 key security, design, and
            development activities in terms of their schedule and progress. We conducted interviews
            with DHS officials to assess their involvement in and concerns with security planning
            and testing.

            To determine whether the DHS used an effective acquisition strategy for developing
            HSDN, we analyzed the acquisition approach and selection, OMB Exhibits 300 for
            CSDN and HSDN, and the DHS Task Order in relation to the Federal Acquisition
            Regulations (FAR) and Government Accountability Office, Assessing Acquisition Risk
            for IT Investments. In addition, we reviewed the Request for Proposals issued under the

16
     Three DHS components are from the BTS directorate.
17
     We met with Defense officials to obtain an understanding of SIPRNET requirements and DHS connectivity to SIPRNET.




                                                             Page 17
                                                    Appendix A
                                                    Purpose, Scope, and Methodology


Millennia contract to determine whether user requirements were translated into the
contractor’s Statement of Work.

We conducted our review between August and November 2004, pursuant to the Inspector
General Act of 1978, as amended, and according to generally accepted government
auditing standards. Major contributors to this report are listed in Appendix E.




            Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                          Page 18
                                                  Appendix B
                                                  Management’s Comments




Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                              Page 19
                                                  Appendix B
                                                  Management’s Comments




Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                              Page 20
                                                                        Appendix C
                                                                        HSDN Implementation Phases
                                                                        and Services


Phase 1                                                               Initial Services
•Secret Gateway
•Available at 73 sites:                                               •Common software settings
    DHS Headquarters                                                  •Secure e-mail
    6 DHS agencies:                                                   •Collaboration across people, partners, and
    (CBP, ICE, USSS, EP&R, S&T, and TSA)                               applications
    Three cities:                                                     •Secure messaging
    (Richmond, VA; New York, NY; Albany, NY)
                                                                      •Data mining and intelligence analysis
Phase 2                                                               •End-user notification
•DHS-wide deployment
                                                                      Future Services
•Department of Energy, Justice, and State
 gateways
                                                                      •Characteristics of information
•Temporary/remote locations brought online
                                                                      •Remote access anytime, anywhere
Phase 3                                                               •Advanced query
•Governors’ offices; state, local, and other U.S.                     •Phone calls using computer network
 domestic civilians; other federal agencies; and,                     •Document management
 emergency operation centers brought online                           •Geospatial analysis (mapping data)
                                                                      •Collection requirements management
Phase 4
                                                                      •Secure video conferencing
•Top Secret gateway
                                                                      •Improved productivity by tagging many
                                                                      objects simultaneously




   Source: OIG Analysis, based on Northrop Grumman, HSDN Project Kickoff Meeting, April 2004, p.35,
   and DHS Investment Review Board Presentation, November 20, 2003, p.6.




                                                            Page 21
                                                                                                    Appendix D
                                                                                                    HSDN Phase 1 Sites (June 2004)

                O ffic e                          L o c a tio n                                               O ffic e                                   L o c a tio n
B U R E A U O F C U S T O M S A N D B O R D E R P R O T E C T IO N                            U S S E C R E T S E R V IC E (U S S S )
(C B P )                                                                                      53. USSS                                          W a s h in g to n , D C
1.    O ffic e o f In te llig e n c e                 W a s h in g to n , D C                 54. USSS                                          B e lts v ille , M D
2.    N a tio n a l L a w E n fo rc e m e n t         O rla n d o , F L                       DHS HEADQUARTERS
      C o m m u n ic a tio n s C e n te r                                                     55.   H Q B u ild in g                            W a s h in g to n , D C
3.    O ffic e o f In fo rm a tio n a n d             N e w in g to n , V A                   56.   H Q B u ild in g                            W a s h in g to n , D C
      T e c h n o lo g y                                                                      57.   H Q B u ild in g                            W a s h in g to n , D C
4.    N a tio n a l T a rg e tin g C e n te r         R e s to n , V A
                                                                                              E M E R G E N C Y P R E P A R E D N E S S & R E S P O N S E (E P & R )
5.    A riz o n a C u s to m s M a n a g e m e n t    Tucson, A Z
      C e n te r (C M C )                                                                     58.   H e a d q u a rte rs                       W a s h in g to n , D C
6.    G u lf C M C                                    N e w O rle a n s , L A                 59.   E m e rg e n c y A C                       B e rry v ille , V A
7.    M id P a c ific C M C                           S a n F ra n c is c o , C A             60.   R e g io n 1 0 , M E R S                   B o th e ll, W A
8.    N o rth A tla n tic C M C                       B o s to n , M A                        61.   R e g io n 6 , M E R S                     D e n to n , T X
9.    S o u th P a c ific C M C                       Long Beach, C A                         62.   R e g io n 8 , M E R S                     Lakewood, C O
10.   W e s t G re a t L a k e s C M C                D e tro it, M I                         63.   R e g io n 1 , M E R S                     M a y n a rd , M A
11.   E ast Texas C M C                               H o u s to n , T X                      64.   R e g io n 4 , M E R S                     T h o m a s v ille , G A
12.   M id A m e ric a C M C                          C h ic a g o , IL                       S C IE N C E A N D T E C H N O L O G Y (S & T ) D IR E C T O R A T E
13.   N e w Y o rk C M C                              N e w Y o rk , N Y                      65.   N o rth w e s t D C                         W a s h in g to n D C
14.   N o rth F lo rid a C M C                        Tam pa, FL                              66.   F o rt D ie tric k                          F re d e ric k , M D
15.   S o u th A tla n tic C M C                      C o lle g e P a rk , G A                T R A N S P O R T A T IO N S E C U R IT Y A G E N C Y (T S A )
16.   S o u th T e x a s C M C                        L a re d o , T X                        67.   C o lo ra d o S p rin g s                  CO
17.   W . T exas & N M C M C                          El Paso, TX                             68.   A n n a p o lis J u n c tio n              MD
18.   E a s t G re a t L a k e s C M C                B u ffa lo , N Y                        69.   H e rn d o n                               VA
19.   M id A tla n tic C M C                          B a ltim o re , M D                     70.   A rlin g to n                              VA
20.   N W G re a t P la in s C M C                    S e a ttle , W A
21.   N o rth P a c ific C M C                        P o rtla n d , O R
                                                                                              S T A T E /L O C A L
22.   S o u th F lo rid a C M C                       M ia m i, F L
                                                                                              71.   N e w Y o rk                                NY
23.   S o u th e rn C a lifo rn ia C M C              S a n D ie g o , C A
                                                                                              72.   A lb a n y                                  NY
                                                                                              73.   R ich m o n d                               VA
24.   P o rt o f N e w a rk                 N e w a rk , N J
IM M IG R A T IO N A N D C U S T O M S E N F O R C E M E N T (IC E )
25.   HQ                                              W a s h in g to n D C
26.   T a c tic a l In te llig e n c e C e n te r     B a y S t. L o u is , M S
27.   A ir M a rin e O p e ra tio n C e n te r        R iv e rs id e , C A
28.   S p e c ia l O p e ra tio n s C e n te r        A lb u q u e rq u e , N M               S o u r c e : H S D N D e p lo y m e n t P la n , (D e liv e r a b le 2 1 ),
29.   F ie ld In te llig e n c e U n it -N E          N e w Y o rk , N Y                      d a te d J u n e 9 , 2 0 0 4 .
30.   F ie ld In te llig e n c e U n it- S E          M ia m i, F L
31.   F ie ld In te llig e n c e U n it- S C          H o u s to n , T X
32.   F ie ld In te llig e n c e U n it -N C          C h ic a g o , IL
33.   F ie ld In te llig e n c e U n it- S W          Tucson, A Z
34.   F ie ld In te llig e n c e U n it P a cific     Long Beach, C A
35.   S p e c ia l A g e n t in C h a rg e            B a ltim o re , M D
36.   S p e c ia l A g e n t in C h a rg e            B o s to n , M A
37.   S p e c ia l A g e n t in C h a rg e            B u ffa lo , N Y
38.   S p e c ia l A g e n t in C h a rg e            D a lla s , T X
39.   S p e c ia l A g e n t in C h a rg e            D e n v e r, C O
40.   S p e c ia l A g e n t in C h a rg e            D e tro it, M I
41.   S p e c ia l A g e n t in C h a rg e            El Paso, TX
42.   S p e c ia l A g e n t in C h a rg e            L o s A n g e le s , C A
43.   S p e c ia l A g e n t in C h a rg e            N e w O rle a n s , L A
44.   S p e c ia l A g e n t in C h a rg e            N e w Y o rk , N Y
45.   S p e c ia l A g e n t in C h a rg e            N e w a rk , N J
46.   S p e c ia l A g e n t in C h a rg e            P h o e n ix , A Z
47.   S p e c ia l A g e n t in C h a rg e            S a n A n to n io , T X
48.   S p e c ia l A g e n t in C h a rg e            S a n D ie g o , C A
49.   S p e c ia l A g e n t in C h a rg e            S a n F ra n c is c o , C A
50.   S p e c ia l A g e n t in C h a rg e            S e a ttle , W A
51.   S p e c ia l A g e n t in C h a rg e            S t. P a u l, M N
52.   S p e c ia l A g e n t in C h a rg e            Tucson, A Z




                                               Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                                                                    Page 22
                                                 Appendix E
                                                 Major Contributors to This Report


Frank Deffer, Assistant Inspector General, Office of Information Technology

Special Projects Division
Marj Leaming, Director
Steve Harrison, Audit Manager
Louis Ochoa, Senior Auditor




            Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                          Page 23
                                                                     Appendix F
                                                                     Report Distribution


Department of Homeland Security
Secretary
Deputy Secretary
General Counsel
Under Secretary, Management
DHS GAO/OIG Liaison Officer
DHS Chief Information Security Officer
DHS Office of Security
DHS Public Affairs
CIO Audit Liaison

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Appropriate Congressional Oversight and Appropriations Committees




           Review Of DHS’ Effort to Develop The Homeland Secure Data Network



                                         Page 24
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations,
call the OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector
General/MAIL STOP 2600, Attention: Office of Investigations - Hotline, 245
Murray Drive, SW, Building 410, Washington, DC 20528, or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.




                                       Page 25
